Department of Health and Human Services
                   OFFICE OF 

              INSPECTOR GENERAL 





COMPLIANCE REVIEW OF LOWELL 

GENERAL HOSPITAL'S METHUEN 

      DIALYSIS FACILITY 


  Inquiries about this report may be addressed to the Office ofPublic Affairs at 

                           Public.Affairs@ oig. hhs. gov. 





                                                     David Lam.ir 

                                               Regional Inspector General 


                                                      February 2014 

                                                      A-01-12-00517 

                         Office of Inspector General
                                         ·https: I I oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office ofAudit.Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office ofEvaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress, 

and the public with timely, useful, and reliable information on significant issues. These evaluations focus . 

on preventing fraud, waste, or abuse and promoting economy, efficiency; and effectiveness of 

departmental programs. To promote impact, OEI reports also present practical recommendations for 

improving program operations. 


Office of Investigations
The Office of Investigations (01) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the Disrrict of Columbia, 01 utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of 01
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG' s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement ·
authorities.
                         Notices 



    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publiCly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                      EXECUTIVE SUMMARY 


 Lowell General Hospital's Methuen Dialysis Facility did not always comply with Medicare
 billing requirements for selected services and did not make quality information fully
 available to patients.


WHY WE DID TIDS REVIEW

In calendar year (CY) 2011, Medicare and beneficiaries paid approximately $10 billion for
dialysis services under a bundled end-stage renal disease (ESRD) prospective payment system
(PPS) that went into effect January 1, 2011. Compliance with Medicare billing requirements
ensures proper payment for dialysis services under the ESRD PPS. The Centers for Medicare &
Medicaid Services (CMS) relies on ESRD Medicare claims data to develop new and adjust
existing payment systems and to monitor payment systems and the implementation of policies.
We conducted this review because providers (dialysis facilities and other entities providing
ESRD-related services) may not have been fully aware of, or may not have established controls
to comply with, Medicare requirements for billing dialysis services under the ESRD PPS. We
selected a hospital-based dialysis facility with a variety of treatment modalities, beneficiary
characteristics, and billing scenarios with a potential risk for billing errors for a comprehensive
review of 10 judgmentally selected beneficiary-months.

The objective of this review was to determine whether Lowell General Hospital Merrimack
Valley- Methuen (the Dialysis Facility) complied with Medicare requirements for the 10
beneficiary-months in our review.

BACKGROUND

Effective January 1, 2011, Medicare pays dialysis facilities for ESRD services on a bundled per­
treatment basis; among other things, it adjusts for geographic differences in area wage and the
characteristics of patients and facilities. With the implementation of the ESRD.PPS, all ESRD­
related services and supplies furnished to a beneficiary must be billed by the dialysis facility. A
dialysis facility is responsible for reimbursing other entities that provide ESRD-related services
to its patients. Furthermore, CMS requires dialysis facilities to include information on their
claims that is used to determine payment and to monitor safety and quality of care. CMS
implemented the ESRD Quality Initiative Program (QIP) to score dialysis facilities on the quality
of care provided to ESRD patients. CMS provides dialysis facilities with certificates containing
their performance scores and other information that facilities must display prominently in a
patient area.

The Dialysis Facility is a hospital-based dialysis facility in Methuen, Massachusetts. Lowell
General Hospital (the Hospital) owns and operates the Dialysis Facility. Medicare paid the
Dialysis Facility $2,344,017 for dialysis services provided to 122 ESRD beneficiaries in CY
2011.




Compliance Review ofLowell General Hospital's Methuen Dialysis Facility (A-01-12-00517)
WHAT WE FOUND

Based on the results of our review of 10 judgmentally sampled beneficiary-months, the Dialysis
Facility did not always comply with Medicare billing requirements for ESRD PPS claims. The
Dialysis Facility billed for treatments not furnished, did not comply with consolidated billing
requirements, and did not accurately record required information on its claims used to compute
the patient-level adjustment to the ESRD PPS per treatment base rate. These fmdings were
associated with four of the beneficiary-months but did not result in a material financial impact.
Furthermore, nine of the beneficiary-months had inaccurate claim information, which hinders
CMS's efforts to monitor the ESRD program. Prior to our review, the Dialysis Facility did not
furnish documentation to the MAC to support the use of the Hospital's higher wage index. In
addition, the Dialysis Facility did not comply with the ESRD QIP requirement to post its entire
Certificate of Dialysis Facility Performance. These errors occurred primarily because the
Dialysis Facility did not have adequate controls to comply with certain Medicare requirements
for the 10 beneficiary-months.

WHAT WE RECOMMEND

We recommend that the Hospital:

    • 	 establish controls to prevent duplicate billing of dialysis treatments,

    • 	 establish controls to ensure compliance with consolidated billing requirements,

    • 	 strengthen controls to ensure that required information is accurately recorded on the
        ESRD claims in accordance with Medicare billing requirements,

    • 	 establish controls to ensure that, if a new dialysis facility is opened or acquired, the
        appropriate wage index is applied to the new facility's claims, and

    • 	 ensure that all parts of the Certificate of Dialysis Facility Performance are prominently
        displayed to provide quality of care information to patients.

LOWELL GENERAL HOSPITAL COMMENTS AND OFFICE OF INSPECTOR
GENERAL RESPONSE

In written comments on our draft report, the Hospital concurred with most of our findings and
recommendations. However, it disagreed that it billed for treatments not furnished. We
maintain that the Dialysis Facility did not have the information necessary to determine the
services were performed.

The Hospital also described the corrective actions it has taken and stated that Fresenius Medical
Care acquired the Dialysis Facility as of September 1, 2013.




Compliance Review of Lowell General Hospital 's Methuen Dialysis Facility (A-01 -12-00517)          ii
                                                       TABLE OF CONTENTS 


INTRODUCTION ............ ....... .... ........ .. .. ................................. ..... ......... ........................ ... ........... 1 


       Why We Did This Review .................................................................................................... 1 


       Objective ......................................... .. ........ ...... ..................... .......... .... ................................... 1 


       Background ........................................................................................................................... 1 

             Dialysis Treatments ....... .......... ...... .... .... .................................................................... 1 

             Dialysis Facilities ...................................................................................................... 2 

             Lowell General Hospital Merrimack Valley - Methuen ........................................... 2 

             Medicare Billing Requirements for Dialysis Services .............................................. 2 

             Changes to the End-Stage Renal Disease Payment System ...................................... 2 

             Facility-Level Adjustment for Geographic Differences in Area Wage Levels ......... 3 

             Patient-Level Adjustment for Case-Mix Variability ................................................. 3 

             Consolidated Billing .................................................................................................. 4 

             Quality Incentive Program ........................................................................................ 4 

             Medicare Oversight of Erythropoiesis-Stimulating Agents ...................................... 4 


       How We Conducted This Review ......................................................................................... 5 


FINDINGS .................................................................................................................................... 6 


       Claims Not Billed In Accordance With Medicare Requirements .................. ....................... 6 

              Billing for Treatments Not Furnished .. .. ..................... .... ..................... ............... .. .... 6 

              Separate Payments for Services Did Not Comply With Consolidated Billing 

                  Requirements .... ....... .............................. ..... ..... ............... ..................................... 6 

              Claims Data Used to Make Patient-Level Adjustments Did Not Comply With 

                  Medicare Requirements ...................... ............ ....... ........ .... ........... ................... .... 7 

              Dialysis Facility Did Not Comply With Other Billing Requirements ...................... 8 

              Facility-Level Adjustment for Geographic Differences in Area Wage Levels Not 

                  Documented or Reviewed ..................................................................................-. 9 


       Entire Certificate of Dialysis Facility Performance Not Posted ............................................ 9 


RECOMMENDATIONS ............................ ...... ...... ........... ... ....... ............... ..... ........................... .. 9 


LOWELL GENERAL HOSPITAL COMMENTS AND OFFICE OF INSPECTOR GENERAL 

  RESPONSE .............................................................................................................................. 10 


APPENDIXES

       A: Audit Scope and Methodology ......................................................................................... 11 


       B: Lowell General Hospital Comments ................................... ... ................................ ... ..... .. 13 



Compliance Review ofLowell General Hospital's Methuen Dialysis Facility (A-01-12-00517)                                                                       iii
                                            INTRODUCTION

WHY WE DID TillS REVIEW

In calendar year (CY) 2011, Medicare and beneficiaries paid approximately $10 billion for
dialysis services under a bundled end-stage renal disease (ESRD) prospective payment system
(PPS) that went into effect January 1, 2011 . Compliance with Medicare billing requirements
ensures proper payment for dialysis services under the ESRD PPS . The Centers for Medicare &
Medicaid Services (CMS) relies on Medicare claims data to develop new and adjust existing
payment systems and to monitor payment systems and the implementation of policies. We
conducted this review because providers (dialysis facilities and other entities providing ESRD­
related services) may not have been fully aware of, or may not have established controls to
comply with, Medicare requirements for billing dialysis services under the ESRD PPS. We
selected a hospital-based facility with a variety of treatment modalities, beneficiary
characteristics, and billing scenarios with a potential risk for billing errors for a comprehensive
review of 10 judgmentally selected beneficiary-months .

. OBJECTIVE

Our objective was to determine whether Lowell General Hospital Merrimack Valley - Methuen
(the Dialysis Facility) complied with Medicare requirements for the 10 beneficiary-months in our
review.

BACKGROUND

Medicare, which is administered by CMS, provides health insurance coverage to eligible
beneficiaries with ESRD under Title XVIII of the Social Security Act (the Act). Chronic kidney
disease causes reduced kidney function. ESRD, the last stage in chronic kidney disease, is
permanent kidney failure that requires a regular course of maintenance dialysis or a kidney
transplant.

Dialysis Treatments

Dialysis replaces the function of the kidneys by removing waste and excess water from the 

body. There are two types of dialysis treatments: hemodialysis and peritoneal dialysis. In 

hemodialysis, an artificial kidney is used to remove waste and excess fluid from blood. 

Hemodialysis is typically furnished three times a week in 3- to 5-hour sessions. In peritoneal 

dialysis, blood is cleaned inside the abdomen (the peritoneal cavity). Peritoneal dialysis is 

furnished continuously, rather than as individual sessions. 


Medicare covers three dialysis treatments per week. CMS considers each hemodialysis
treatment to be a single dialjYsis treatment. CMS equates 1 week (7 days) of peritoneal dialysis
to three dialysis treatments.


1
 Medicare Benefit Policy Manual, Pub. 100-02, ch. 11, § 30.l.B; CMS, Medicare Claims Processing Manual, Pub.
No. 100-04, ch. 8, § 80.4.

Compliance Review of Lowell General Hospital's Methuen Dialysis Facility (A -01-12 -00517)                     1
Dialysis Facilities

Dialysis facilities provide outpatient dialysis treatments to ESRD patients. Beneficiaries may
receive dialysis either at a Medicare-certified dialysis facility or at home. A dialysis facility can
be either a hospital-based or independent facility. There were approximately 5,700 outpatient
dialysis facilities in the United States in CY 2011. Hospital-based facilities provided
beneficiaries with approximately 6 percent of dialysis treatments in CY 2011.

Lowell General Hospital Merrimack Valley - Methuen

The Dialysis Facility is a hospital-based dialysis facility in Methuen, Massachusetts. Lowell
General Hospital (the Hospital) owns and operates the Dialysis Facility. The Hospital also owns
                                                                                2
and operates a second hospital-based dialysis facility in Lowell, Massachusetts. Medicare paid
the Dialysis Facility $2,344,01 7 for dialysis services provided to 122 ESRD beneficiaries in CY
2011. The Dialysis Facility has 19 stations and operates 16 hours a day, 6 days a week.

NHIC, Corp., is the Medicare administrative contractor (MAC) for the Dialysis Facility.

Medicare Billing Requirements for Dialysis Services

ESRD services are subject to the monthly billing requirements for repetitive services.3 Dialysis
facilities submit a monthly claim for each beneficiary to a MAC, which contracts with CMS to
process and pay Medicare claims. The claims must be completed accurately in order for the
MAC to process them correctly and promptly. 4

CMS requires dialysis facilities to include information on their claims that is used to determine
payment and to monitor safety and quality of care. For example, dialysis facilities are required
to report hemoglobin or hematocrit levels for their beneficiaries receiving erythropoiesis­
stimulating agents (ESAs) on their Medicare claims for payment. 5

Changes to the End-Stage Renal Disease Payment System

Before January 1, 2011, Medicare used a single payment rate to reimburse dialysis facilities for
the costs of dialysis treatments and certain routine drugs, laboratory tests, and supplies. In
addition, dialysis facilities could receive payments for separately billable injectable drugs and

2
  Effective July 1, 2012, Lowell General Hospital and Saints Medical Center merged to combine formally as Lowell
General Hospital. During our audit period, Saints Medical Center owned and operated the two dialysis facilities.
Subsequently, effective September 1, 2013, Fresenius Medical Care acquired Lowell General Hospital's dialysis
facilities.
3
    Medicare Claims Processing Manual, Pub. 100-04, ch. 8, §50.3.
4
    Medicare Claims Processing Manual, Pub. 100-04, ch. 1, §80.3 .2.2.
5
 "National Monitoring Policy for EPO and Aranesp for End Stage Renal Disease (ESRD) Patients Treated in Renal
Dialysis Facilities," Medicare Claims Processing Manual, Transmittal751 (Change Request 4135; November 10,
2005). Effective January 1, 2012, ESRD facilities are required to report hematocrit or hemoglobin levels on all
ESRD claims (Medicare Claims Processing Manual, Pub. No. 100-04, ch. 8, § 60.4.2).

Compliance Review of Lowell General Hospital's Methuen Dialysis Facility (A -01 -12-00517)                         2
nonroutine laboratory tests. These separately billable services represented about 40 percent of
total Medicare payments per dialysis treatment.

Effective January 1, 2011, the ESRD PPS combined the single payment rate and separate
reimbursements for dialysis services into a bundled per-treatment base rate. The CY 2011 base
rate for a dialysis treatment was $230. Medicare adjusts the base rate for geographic factors and
the characteristics of patients and facilities to determine the per-treatment payment to dialysis
facilities. 6 In addition, dialysis facilities that treat beneficiaries with unusually high resource
requirements, measured through the utilization of specific services, are entitled to additional
payments beyond the otherwise applicable PPS payment amounts . After a beneficiary's Part B
deductible 7 has been met, Medicare reimburses dialysis facilities 80 percent of the base rate and
all applicable adjustments for each dialysis treatment furnished. Beneficiaries are responsible for
the remaining 20 percent.

Facility-Level Adjustment for Geographic Differences in Area Wage Levels

The ESRD PPS includes a facility-level adjustment that reflects geographic differences in area
wage levels. Medicare adjusts the labor-related share of the ESRD PPS base rate using the wage
index in which the ESRD facility is geographically located. 8 Prior to January 1, 2006, CMS used
Metropolitan Statistical Areas (MSAs) to determine the wage index . The Dialysis Facility and
the Hospital were located in the same MSA. CMS replaced MSAs with Core-Based Statistical
Areas (CBSAs). 9 Under the new CBSA code structure the Dialysis Facility and Hospital are
located in different CBSAs.

Patient-Level Adjustment for Case-Mix Variability

The ESRD PPS base rate is adjusted for characteristics of both adult and pediatric patients to
account for case-mix variability. The adult case-mix adjusters include body surface area (BSA)
and low body mass index (BMI). 10 Both measures are strong predictors of variation in costs and
are closely associated with the duration and intensity of dialysis necessary to achieve a
therapeutic dialysis target for ESRD patients. Medicare computes the BSA and BMI using
patient height and weight data that dialysis facilities record on their claims. 11

6
  CMS offered dialysis facilities the option to elect to be reimbursed 100 percent by the bundled ESRD PPS and
required facilities to make this election by November 1, 2010. Approximately 87 percent of dialysis facilities
elected this option. CMS uses a blended payment rate composed of the old and the new payment system phased in
during a 4-year transition period to reimburse each dialysis treatment to facilities that did not elect the bundled
ESRD PPS payment.
7
    In each CY, a cash deductible must be satisfied before payment is made under Medicare Part B.
8
    75 Fed. Reg. 49200 (Aug. 12, 2010).
9
    70 Fed. Reg. 70167-70170 (Nov. 21, 2005).
10
     Medicare Claims Processing Manual, Pub. No. 100-04, ch. 8, § 20.1.
11
     Medicare Benefit Policy Manual, Pub. No. 100-02, ch. 11, § 60.A.3.


Compliance Review of Lowell General Hospital's Methuen Dialysis Facility (A-01 -12-00517)                             3
Consolidated Billing

The ESRD PPS includes a consolidated billing requirement for services included in the bundled
payment rate. With the implementation of the ESRD PPS, all ESRD-related services must be
billed by the dialysis facility and are no longer separately payable when furnished by a provider
other than the dialysis facility. When an ESRD-related service is billed by an outside supplier or
provider, the claim will be rejected or denied to prevent duplicate payment. In the event that a
service is furnished for reasons other than the treatment ofESRD, the dialysis facility (or outside
supplier or provider) may submit a claim for separate payment using modifier "AY." 12 The AY
modifier serves as an attestation that the service was not used for the treatment of ESRD. 13

Quality Incentive Program

The ESRD Quality Incentive Program (QIP) is designed to improve patient outcomes by
establishing payment incentives for dialysis facilities to meet performance standards. CMS
establishes quality of care measures for each calendar year performance period and facilities are
scored on each measure. Dialysis facilities that do not meet or exceed the highest possible total
score for a performance period will have their Medicare payments for dialysis services furnished
during the corresponding payment year reduced on a sliding scale, with a maximum 2 percent
reduction applied to any facility. Reductions apply to payments made after January 1, 2012
(payment year 2012), based on scores for performance year 2010. For each payment year, CMS
provides dialysis facilities with certificates containing their performance scores and other
information. These certificates must be prominently displayed in a patient area of the facility. 14

CMS established two quality measures for the CY 2011 performance period: (1) an anemia
management measure that assesses the percentage of patients with a hemoglobin level greater
than 12 g/dL (for which a lower percentage indicates better performance on the measure) and (2)
a hemodialysis adequacy measure, which assesses the percentage of patients with a urea
reduction ratio (URR) of at least 65 percent (for which a higher percentage indicates better
performance on the measure). The hemoglobin and URR readings that dialysis facilities reported
on their CY 2011 claims were used to determine payment year 2013 performance scores.

Medicare Oversight of Erythropoiesis-Stimulating Agents

CMS established a monitoring policy, which reduces Medicare payments for ESAs when a
beneficiary's hemoglobin or hematocrit exceeds a threshold under certain circumstances. 15 In


12
     Medicare Claims Processing Manual, Pub. No. 100-04, ch. 8, §§ 10, 60.1 and 60.2.1.1.
13
     Medicare Benefit Policy Manual, Pub. No. 100-02, ch. 11, § § 20.2.B.1 and 20.3.E.
14
     CMS Fact Sheet, "CMS Finalizes Quality Incentive Program for Dialysis Faciljties," released December 29, 2010.
15
  "Modification to the National Monjtoring Policy for Erythropoietic Stimulating Agents for End-Stage Renal
Disease Patients Treated in Renal Dialysis Facilities," Medicare Claims Processing Manual, Transrnittal1307
(Change Request 5700; July 20, 2007).


Compliance Review ofLowell General Hospital's Methuen Dialysis Facility (A-01-12-00517)                               4
addition, medically unlikely edits 16 identify claims that bill for quantities of ESAs in excess of
maximum dosage amounts and return these claims to providers for correction before processing
for payment.

HOW WE CONDUCTED TIDS REVIEW

We used CMS's National Claims History file to identify CY 2011 dialysis treatments reimbursed
under the ESRD PPS and grouped those treatments by beneficiary and calendar month
(beneficiary-month). 17 We then used the National Claims History file to identify all other CY
2011 Medicare claims submitted by other providers for those beneficiary-months. Using
medical and billing records, we reviewed a judgmental sample of 10 beneficiary-months to
determine whether the claims complied with Medicare requirements for billing dialysis services.
We selected the beneficiary-months to obtain a variety of treatment modalities, beneficiary
characteristics, and billing scenarios with the potential risk for billing errors for review. All
beneficiaries selected for review were adult patients. We limited our review of internal controls
to those applicable to billing procedures and medical record documentation for ESRD PPS
services furnished by the Dialysis Facility. Our objective did not require that we determine
whether the services billed were medically necessary. This report does not represent an overall
assessment of all claims submitted by the Dialysis Facility for Medicare reimbursement. Our
review enabled us to establish reasonable assurance of the authenticity and accuracy of the data
obtained from the National Claims History file, but we did not assess the completeness of the
file.

Our audit covered $23,091 in Medicare payments to the Dialysis Facility for 10 beneficiary­
months (each beneficiary-month consisted on one ESRD PPS claim) with dates of service in CY
2011.

We conducted our fieldwork at the Dialysis Facility from April through August 2012. We also
contacted NHIC, Corp., 18 and CMS officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix A contains the details of our scope and methodology.


16
  Medically unlikely edits identify claims before they are processed by CMS for payment that have ESAs i n excess
of the maximum dosages and return these claims to providers for correction.
17
  Each hemodialysis treatment was considered a single dialysis treatment. We converted peritoneal dialysis to
dialysis treatments by dividing the number of days peritoneal dialysis was billed during a beneficiary-month by
seven and multiplying the result by three.
18
  NHIC, Corp., is the MAC responsible for processing and paying Medicare claims submitted by the Dialysis
Facility.

Compliance Revie w of Lowell General Hospital's Methuen Dialysis Facility (A-01-12-00517)                           5
                                                  FINDINGS 


Based on the results of our review of 10 judgmentally sampled beneficiary-months, the Dialysis
Facility did not always comply with Medicare billing requirements for ESRD PPS claims. The
Dialysis Facility billed for treatments not furnished, did not comply with consolidated billing
requirements, and did not accurately record required information on its claims used to compute
the patient-level adjustment to the ESRD PPS per treatment base rate. These findings were
associated with four of the beneficiary-months but did not result in a material financial impact.
Furthermore, nine of the beneficiary-months had inaccurate claim information, which hinders
CMS's efforts to monitor the ESRD program. Prior to our review, the Dialysis Facility did not
furnish documentation to the MAC to support the use of the Hospital's higher wage index. In
addition, the Dialysis Facility did not comply with the ESRD QIP requirement to post its entire
Certificate of Dialysis Facility Performance. These errors occurred primarily because the
Dialysis Facility did not have adequate controls to comply with certain Medicare requirements
for the 10 beneficiary-months.

CLAIMS NOT BILLED IN ACCORDANCE WITH MEDICARE REQUIREMENTS

Billing for Treatments Not Furnished

Medicare payments may not be made for items or services that "are not reasonable and necessary
for the diagnosis or treatment of illness or injury or to improve the functioning of a malformed
body member" (the Social Security Act (the Act), § 1862(a)(l)(A)). In addition, payments may
not be made to any provider of services or other person without information necessary to
determine the amount due the provider (the Act, § 1833(e)).

For one beneficiary-month, the Dialysis Facility billed and was reimbursed for two treatments
that were not performed. On September 6 and 13, 2011, a home peritoneal dialysis patient had
hemodialysis treatments at the Hospital's other dialysis facility instead of performing the dial(ssis
at home. The Hospital's other dialysis facility billed Medicare for the hemodialysis services. 9
Since the peritoneal and hemodialysis treatments were billed under different Medicare provider
numbers, the Hospital's billing department did not adjust the number of peritoneal dialysis
treatments billed to Medicare accordingly. Dialysis Facility officials attributed this error to
inadequate controls to prevent the duplicate billing of dialysis treatments. There was no material
financial impact for this finding.

Separate Payments for Services Did Not Comply With Consolidated Billing Requirements

MACs make payments to dialysis facilities for all ESRD-related services and supplies furnished
to a beneficiary through the ESRD PPS. Dialysis facilities are responsible for reimbursing other



19
  We did not review the claim submitted by the Hospital's other dialysis facility to determine whether the total
number of treatments billed to and reimbursed by Medicare for this beneficiary in September 2011 was medically
justified.



Compliance Review of Lowell General Hospital's Methuen Dialysis Facility (A-01-12-00517)                           6
entities that provide ESRD-related services to its patients. 20 Medicare made the following
duplicate payments for ESRD-related services that were billed by other providers and suppliers.

Intravenous Infusion

For one beneficiary-month, a home peritoneal dialysis patient required the intravenous infusion
of an ESRD-related drug. The patient chose to go to the Hospital for the infusion because it was
~ore convenient, according to Dialysis Facility staff. The Dialysis Facility was not aware they
should notify other providers to bill the Dialysis Facility for ESRD-related service. There was
no material financial impact for this finding.

Drugs

For one beneficiary-month, the patient's nephrologist prescribed a local anesthetic cream used
for access management that the patient had filled at their local pharmacy using the Medicare Part
D prescription drug benefit. The Dialysis Facility and the ordering nephrologist were not aware
that the cream was included in the ESRD PPS. There was no material financial impact for this
finding.

Claims Data Used to Make Patient-Level Adjustments Did Not Comply With Medicare
Requirements

CMS requires dialysis facilities to measure weight in kilograms immediately following the last
dialysis session of the month and record it on the ESRD PPS claim? 1 The patient's weight is
required on the claim in order to compute the patient level adjustments to the ESRD PPS base
rate. 22 Because a dialysis patient's weight fluctuates throughout the month, the requirement that
the facility record the patient's weight, measured immediately following the last dialysis session
of the month, on the claim ensures that the MAC reimburses all facilities for treatments
consistently.

For three beneficiary-months, the Dialysis Facility furnished beneficiaries with home peritoneal
dialysis services. The Dialysis Facility did not record the patients' weight measured immediately
following the last dialysis session of the month on the claims for these beneficiaries. For two
beneficiary-months, the Dialysis Facility recorded the weight measured during the patients'
monthly facility visits on its claims. The monthly clinic visits for home patients can occur
anytime during the month. The Dialysis Facility stated that obtaining the weight from the last
dialysis session of the month from patients' home records in a timely manner would be a
challenge. Patients bring their home records in at their monthly visit, which can be several days
or weeks after the end of the billing month.



20
     Medicare Claims Processing Manual, Pub. No. 100-04, ch. 8, § 10.
21
 Medicare Claims Processing Manual, Pub. No. 100-04, ch. 8, § 50 .3 and Medicare Benefit Policy Manual, Pub.
No. 100-02, ch. 11, § 60.A.3 .
22
     Medicare Benefit Policy Manual, Pub. No. 100-02, ch. 11, § 60.A.3 .

Compliance Review ofLowell General Hospital's Methuen Dialysis Facility (A-01-12-00517)                        7
For one beneficiary-month, the beneficiary had both home peritoneal and hemodialysis
treatments during the month. The Dialysis Facility submitted the home dial~sis monthly claim
with the weight measured before the last hemodialysis session of the month 3 rather than the
weight measured immediately following the last home dialysis session of the month. There was
no material financial impact for this finding.

Dialysis Facility Did Not Comply With Other Billing Requirements

Drugs and Biologicals Inappropriately Aggregated on the Claim

The dialysis facility should report any drug or biological furnished on the ESRD claim with the
line item date of service and the quantity of the drug or biological furnished at the time of the
visit. 24 Line item billing for drugs furnished on each date of service provides CMS with the most
accurate claims information and could be used to assist CMS in future refinements to improve
the accuracy and equity of ESRD payments. 25

For eight beneficiary-months, beneficiaries were furnished drugs requiring line item billing.
However, the Dialysis Facility reported the units furnished for the drugs in the aggregate on its
Medicare claims. The Dialysis Facility officials stated that the Hospital's system automatically
aggregated the drugs on its claims.

Most Recent Hemoglobin and Hematocrit Readings Not Report on the Claim

CMS requires dialysis facilities to report either a hemoglobin or hematocrit reading on their
claims to indicate the patient's most recent reading taken before the start of the billing period. 26

For one beneficiary-month, the Dialysis Facility did not report the most recent hemoglobin
reading on its claim. This occurred because the Dialysis Facility's billing department made a
clerical error. As a result, a lower hemoglobin level was reported on the claim. We
acknowledge that this one error may not have had an effect on Medicare payments to the
Dialysis Facility. However, inaccurate claims information that is used for ESA monitoring or
QIP purposes could result in incorrect payments to dialysis facilities. Such inaccurate
information also hinders CMS's efforts to monitor safety and quality.



23
  The ESRD PPS claim for the patient's hemodialysis services were submitted by the Hospital's other dialysis
facility. We did not determine whether that claim was submitted in accordance with Medicare guidelines.
24
     Medicare Claims Processing Manual , Pub. No. 100-04, ch . 8, §§ 50.4 and 60.2.
25
 "Line Item Billing Requirement for End Stage Renal Disease (ESRD) Claims," Medicare Claims Processing
Manual, Transmittal 1084 (Change Request 5039 ; October 26, 2006).
26
  "National Monitoring Policy for EPO and Aranesp for End Stage Renal Disease Patients Treated in Renal Dialysis
Facilities," Medicare Claims Processing Manual, Transmittal 751 (Change Request 4135; November 10, 2005).
Effective January 1, 2012, ESRD facilities are required to report hematocrit or hemoglobin levels on all ESRD
claims (Medicare Claims Processing Manual, Pub. No. 100-04, ch. 8, § 60.4.2).


Compliance Review ofLowell General Hospital's Methuen Dialysis Facility (A-01-12-00517)                            8
Facility-Level Adjustment for Geographic Differences in Area Wage Levels Not
Documented or Reviewed

The Dialysis Facility is located in a different geographical area, with a lower wage index, than
the Hospital. When a hospital-based facility is located in a different geographical area than the
main hospital complex, the facility must furnish financial data to the MAC that demonstrates that
the wages and benefits paid to dialysis facility employees are identical those paid to hospital
                                                                                   27
employees in order for the hospital's wage index to apply to the dialysis facility. When CMS
introduced CBSA codes as the basis for wage index factors in January 2006, the MAC
automatically assigned the Hospital's wage index ~o the Dialysis Facility without a review of
financial data and a determination that the wage scales were identical.

During our review, we brought this matter to the attention of Dialysis Facility officials and the ·
Dialysis Facility submitted the required documentation to the MAC for review. The MAC
concluded that the Dialysis Facility was currently and retroactively operating under the same
salary and benefit package as the Hospital. CMS agreed that the correct wage index adjustment
was being applied to the Dialysis Facility's ESRD claims.

ENTIRE CERTIFICATE OF DIALYSIS FACILITY PERFORMANCE NOT POSTED ·

A dialysis facility must prominently display its Certificate of Dialysis Facility Performance,
which indicates the total performance score achieved, in a patient area. 28 Part 1 of the certificate
identifies the facility's QIP score, and Part 2 explains the purpose of the QIP, how the facility is
scored, and how patients can get additional information.

The Dialysis Facility did not post Part 2 of the 2012 Certificate of Dialysis Facility Performance
in the patient waiting area. As a result, patients may not have been aware of the significance to
the QIP and how to obtain additional information about it. The Dialysis Facility stated that this
was an oversight and subsequently posted Part 2 o_f the certificate.

                                           RECOMMENDATIONS

We recommend that the Hospital:

       • 	 establish controls to prevent duplicate billing of dialysis treatments,

       • 	 establish controls to ensure compliance with consolidated billing requirements,

       • 	 strengthen controls to ensure that required information is accurately recorded on the
           ESRD claims in accordance with Medicare billing requirements,

       • 	 establish controls to ensure that, if a new dialysis facility is opened or acquired, the
           appropriate wage index is applied to the new facility's claims, and

27
     Medicare Claims Processing Manual, Pub. No. 100-04, ch. 8, § 30.2.B.2.
28
     The Act,§ 1881(h)(6) (C) .

Compliance Review ofLowell General Hospital's Methuen Dialysis Facility (A-01-12-00517)                 9
    • 	 ensure that all parts of the Certificate of Dialysis Facility Performance are prominently
        displayed to provide quality of care information to patients.

     LOWELL GENERAL HOSPITAL COMMENTS AND OFFICE OF INSPECTOR
                        GENERAL RESPONSE

In written comments on our draft report, the Hospital concurred with most of our findings and
recommendations. However, it disagreed that it billed for treatments not furnished. We
maintain that the Dialysis Facility did not have the information necessary to determine the
services were performed.

The Hospital also described the corrective actions it has taken and stated that Fresenius Medical
Care acquired the Dialysis Facility as of September 1, 2013.

The Hospital's comments are included in their entirety as Appendix B.




Compliance Review of Lowell General Hospital's Methuen Dialysis Facility (A -OJ -12 -00517)         10
                    APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

Our audit covered $23,091 in Medicare payments to the Dialysis Facility for 10 beneficiary­
months (each beneficiary-month consisted on one ESRD PPS claim) with dates of service in CY
2011. We judgmentally selected these beneficiary-months because of various billing
characteristics and the potential risk for billing errors. We also identified all other CY 2011
Medicare claims submitted by any other provider(s) for those 10 beneficiary-months.

We conducted a comprehensive review of the ESRD PPS claims for the 10 beneficiary-months,
but limited our review of the separately billed items during the beneficiary-month to those that
were potentially subject to consolidated billing.

We evaluated compliance with ESRD billing requirements. The objective of our review did not
require that we not use medical review to determine whether the services bill~d were medically
necessary or whether any separately billed services were ESRD-related.                        ·

We limited our review of internal controls to those applicable to billing procedures and medical
record documentation for ESRD PPS services furnished by the Dialysis Facility. We established
reasonable assurance of the authenticity and accuracy of the data obtained from CMS; s National
Claims History file, but we did not assess the completeness of the file.

This report does not represent an overall assessment of all claims submitted by the Dialysis
Facility for Medicare reimbursement.

We conducted our fieldwork at the Dialysis Facility from April through August 2012.

METHODOLOGY

To accomplish our objective, we:

    • 	 reviewed applicable Federal laws, regulations, and guidance;

    • 	 interviewed CMS officials;

    • 	 used CMS' s National Claims History file to identify the first 11 months of CY 2011
        dialysis treatments reimbursed to the Dialysis Facility under the ESRD PPS and grouped
        those treatments by beneficiary-months;

    • 	 identified 903 beneficiary-months with $2,116,602 in Medicare payments to the Dialysis
        Facility under the ESRD PPS for 115 beneficiaries from which we selected our sample;

    • 	 identified all other CY 2011 Medicare claims submitted by other providers for the 115
        beneficiaries;




Compliance Review of Lowell General Hospital's Methuen Dialysis Facility (A-01-12-00517)           11
     • 	 selected a judgmental sample of 10 beneficiary-months to obtain a variety of treatment
         modalities, beneficiary characteristics, and billing scenarios with potential risk for billing
         errors for a detailed review;                                                               ·

     • 	 reviewed available data from CMS' s Common Working File for the selected claims to
         determine whether the claims had been cancelled or adjusted;

     • 	 interviewed Dialysis Facility personnel and reviewed the Dialysis Facilities policies and
         procedures applicable to billing ESRD claims;

     • 	 toured the dialysis facility to gain an understanding of its operations and observe whether
         the QIP Certificate was properly posted;

     • 	 reviewed the itemized bills and medical record documentation provided by the Dialysis
         Facility to support the selected claims;

     • 	 determined whether the ESRD PPS claims submitted by the facilit/ 9 were supported and
         billed correctly;

     • 	 determined whether any.services subject to consolidated billing were inappropriately
         separately billed;

     • 	 contacted MAC about the wage index applied to the Dialysis Facility's claims;

     • 	 discussed the incorrectly billed claims with Dialysis Facility personnel to determine the
         underlying causes of noncompliance with Medicare requirements;

     • 	 calculated the correct payments for those claims requiring adjustments; and

     • 	 discussed the results of our review with Dialysis Facility officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions ·
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




29
  Three of the beneficiary-months judgmentally selected each contained one ESRD PPS claim for home dialysi s
services. These home dialysis beneficiaries were patients at the Hospital's other dialysis facility. The Hospital
incorrectly billed the ESRD PPS claims with the Dialysis Facility's provider number. Because the Dialysis Facility
received payment for these beneficiary-months we included them in the scope of our review.

Compliance Review ofLowell General Hospital's Methuen Dialysis Facility (A-01-12-00517)                              12
            APPENDIX B: LOWELL GENERAL HOSPITAL COMMENTS


                                                          ~
                                           Lowell General Hospital
                                                          '-..-/' 

                                                  C omplete connected care..,




     December 17, 2013


     Mr. David lamir
     Regional Inspector General for Audit Services
     Office of Audit Services, Region 1
     JFK Federal Building
     15 New Sudbury Street, Room 2425
     Boston, M A 02203

     Report Number: A-01-12-00517

     Dear Mr. lamir:

     lowell General Hospital {LGH) appreciates the opportunity to review and provide comments on the ·U.S.
     Department of Health and Human Services, Office of Inspector General {OIG) draft report entitled
     Compliance Review of Lowell General Hospital's Methuen Dialysis Facility. lGH is committed to
     complying with all regulations and · standards governing Federal health care programs, improving
     internal controls and proactively auditing and monitoring to minimize the risk of errors.

     lGH's responses to the OIG's recommendations are set forth below.

     0/G Recommendations;

            1. 	 establish controls to prevent duplicate billing,
            2. 	 establish controls to ensure compliance with consolidated billing requirements,
            3. 	 strengthen controls to ensure that required information is accurately recorded on the ESRD
                 claim in accordance with Medicare billing requirements,
            4. 	 establish controls to ensure that, if a new dialysis facility is opened or acquired, the
                 appropriate wage index is applied to the new facility's claims, and
            5. 	 ensure that all parts of the Certificate of Dialysis Facility Performance are prominently
                 displayed to provide quality of care information to patients.

    LGH Comments

            1. 	 lGH is not in concurrence with the OIG with regards to for billing for treatments not
                 furnished. The patient received home peritoneal dialysis and hemodialysis treatment on the
                 two days in question. Although this is an extremely rare occurrence, both services were
                 provided to the patient. Both services are reasonable and necessary for the treatment of the
                 illness and to improve the functionality of the patient.
            2. 	 LGH is concurring with the OIG and has taken corrective actions to assure fu l l compliance
                 with the consolidated billing requirements. A home peritoneal patient required an



    A CIRCLE HEALTH MEMBER   295 Varnum Avenue, Lowell, MA 0 1854-2193 • 978-937· 6000 • nY: 9"/8-9 3 '7-6889 • www.lowellgeneral.org


Compliance Review of Lowell General Hospital’s Methuen Dialysis Facility (A-01-12-00517)                                           13
                  intravenous infusion of an ESRD-related drug and chose to go to the hospital for
                 convenience purposes. The dialysis staff was unaware they should notify the clinic that the
                  patient was receiving an ESRD-related service. A corrective action was taken to educate the
                  peritoneal nurse to inform the clinic about patients receiving ESRD-related services . This
                 action alerted the billing department to not bill separately according to Medicare billing
                  requirements. Also, as part of the consolidating billing review, was a patient' nephrologist
                  prescribing local anesthetic cream used for access management. The dialysis staff and the
                  nephrologist were not aware that the cream was included in the ESRD PPS payment. Staff
                 and physicians have been educated to this billing requirement. ·
            3. 	 LGH is concurring with the OIG and has taken corrective action to ensure compliance with
                 Medicare billing requirements. The patient's weight is required on the claim in order to
                 compute the patient level adjustments to the ESRD PPS base rate . Because the patient
                 weight fluctuates during the month, the patient's weight should be measured immediately
                 following the last session of the month. A corrective action has changed the process for
                 collecting home peritoneal dialysis patient's weight. The last day of the month, the home
                 dialysis patients are required to call the facility and state there current weight . If the dialysis
                 staff does not receive a call from the patient, they will call the patient that day. Also with
                 regards to other billing arrangements, line item billing for drugs and biologicals was
                 furnished in the aggregate on Medicare claims. LGH billing department has refined its billing
                 process to comply with line item billing per Medicare regulations .
            4. 	 LGH is concurring with the OIG to ensure that the appropriate wage index is applied to new
                 facility's claims. Since the Methuen dialysis facility is located in a different geographical
                 location than hospital, the provider must furnish financial documentation that demonstrates
                 that the wages and benefits paid to dialysis employees are identical to those paid to hospital
                 employees in order for the hospital wage index to apply to the dialysis facility. This
                 documentation was provided to our Fiscal Intermediary and they concluded that the correct
                 wage index was being applied to the Methuen dialysis facility. It should be noted that as of
                 September 1, 2013, LGH's dialysis facilities have been acquired by Fresenius Medical Care.
            5. 	 LGH is concurring that all parts of the Certificate of Dialysis Facility Performance are
                 prominently displayed to provide quality of care information to patients. The dialysis staff
                 has taken corrective action and posted the applicable certificate immediately after the
                 oversight was recognized .

    Thank you for the opportunity to review and comment on the Draft Report . Please take our comments
    into consideration before the final report is issued.

    Sincerely,



    ~~
    Corporate    Compliance,~a.....>+-




Compliance Review of Lowell General Hospital’s Methuen Dialysis Facility (A-01-12-00517)                          14
